Report No. D-2008-040           January 4, 2008




Defense Retiree and Annuitant Pay System and the
 Deployable Disbursing System Compliance with
  the Defense Business Transformation System
               Certification Criteria
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

CA                    Certification Authority
CCA                   Clinger Cohen Act of 1996
CONOPS                Investment Review Process Overview and Concept of Operations
                         for Investment Review Boards
DAA                   Designated Approving Authority
DBSMC                 Defense Business Systems Management Committee
DDS                   Deployable Disbursing System
DFAS                  Defense Finance and Accounting Service
DITSCAP               DoD Information Technology Security Certification and
                         Accreditation Process
DRAS                  Defense Retiree and Annuitant Pay System
FFMIA                 Federal Financial Management Improvement Act
IRB                   Investment Review Board
IRWG                  Investment Review Working Group
NDAA                  National Defense Authorization Act
OSD                   Office of the Secretary of Defense
PCA                   Pre-Certification Authority
PMO                   Program Management Office
SSAA                  System Security Authorization Agreement
                              INSPECTOR GENERAL

                             DEPARTMENT OF DEFENSE

                              400 ARMY NAVY DRIVE

                         ARLINGTON, VIRGINIA 22202-4704




                                                                           January 4, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE

SUBJECT: Report on the Defense Retiree and Annuitant Pay System and the Deployable
         Disbursing System Compliance with the Defense Business Transformation
         System Certification Criteria (Report No. D-2008-040)


         We are providing this report for information and use. No written response to this
repOit was required, and none was received. Therefore, we are publishing this report in
final fOlID.

        We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Patricia Remington at (703) 601-5815 (DSN 329-5815), Mr. G. Marshall Grimes
at (703) 601-5808 (DSN 329-5808). The team members are listed inside the back cover.
See Appendix B for the repOit distribution list.

                               By direction of the Deputy Inspector General for Auditing:




                                             /~;::~
                                             Assistant Inspector General
                                          Defense Financial Auditing Service
                Department of Defense Office of Inspector General
Report No. D-2008-040                                                       January 4, 2008
   (Project Nos. D2006-D000FG-0174.000, D2006-D000FG-0179.000)

    Defense Retiree and Annuitant Pay System and the Deployable

      Disbursing System Compliance with the Defense Business 

            Transformation System Certification Criteria 


                                 Executive Summary

Who Should Read This Report and Why? DoD personnel who prepare, review,
pre-certify, certify, and approve Defense business system investments will find this
report of interest. It describes the policies and procedures used to prepare, pre-certify,
certify, and approve Tier 3 Defense business modernizations. Specifically, this report
discusses the procedures used to approve the FY 2006 modernization efforts for the
Defense Retiree and Annuitant Pay System (DRAS) and the Deployable Disbursing
System (DDS).
Background. The Deputy Under Secretary of Defense (Business Transformation)
requested that we review DoD Component compliance with the Defense Business
Transformation System Certification Criteria. This report is one in a series and discusses
the compliance of DRAS and DDS with the Defense Business Transformation System
Certification Criteria. One additional report will discuss another system’s compliance.
The “Ronald W. Reagan National Defense Authorization Act for Fiscal Year 2005”
(NDAA) states that funds appropriated for Defense business system modernizations in
excess of $1 million may not be obligated unless certified by the Designated Approving
Authority and approved by the Defense Business Systems Management Committee. To
comply with the NDAA, the Defense Business Systems Management Committee issued
the Investment Review Board Concept of Operations. The Concept of Operations
provides guidance on certifying Defense business system investments in excess of
$1 million, which require an Office of the Secretary of Defense-level review and
approval. Components were expected to develop their own investment review processes
consistent with the NDAA and this Concept of Operations.
DRAS is an automated system that computes retirement and annuity pay for all military
retirees, annuitants, and surviving spouses. This centrally located system interfaces with
applicable personnel, accounting, and disbursing systems.
DDS is an automated system that provides users with a standard method to automate
travel pay, military pay, accounts payable, collection processes, disbursing functions, and
reporting requirements. The system interfaces with applicable automated information
systems for disbursing, collecting, processing, and recording disbursement data and
transactions. DDS can be used on a network or stand-alone computer.
Results. The Defense Finance and Accounting Service Investment Review Board
process was not sufficient for pre-certifying modernization packages and identifying
required supporting documentation. As a result, the Defense Business Systems
Management Committee did not provide reasonable assurance that the pre-certification,
certification, and approval for funding of the DRAS and DDS modernization packages
were in accordance with the DoD goal of improving financial information and systems
and facilitating audit readiness. Unless the Defense Business Systems Management
Committee provides adequate guidance to Components for implementing sufficient
controls, the Defense Business Systems Management Committee may continue to
approve system modernizations that are not adequately supported or that do not comply
with Federal and DoD regulations. See the Finding section of the report for a complete
discussion of our review.
Management Comments. We provided a draft of this report on May 30, 2007. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.

Management Actions. Management actions taken to address the recommendations for
DoD Office of Inspector General Report No. D-2008-006, “Automated Time Attendance
and Production System Compliance with Defense Business Transformation System
Certification Criteria,” October 26, 2007, should resolve the issues outlined in this report.




                                             ii
Table of Contents 


Executive Summary                                                  i


Background                                                         1


Objectives                                                         5


Review of Internal Controls                                        5


Finding 

      Investment Review Process for Business System Investments    6


Appendixes
      A. Scope and Methodology                                     9

      B. Report Distribution                                      11 

Background 

    The Deputy Under Secretary of Defense (Business Transformation) requested that
    we review DoD Component compliance with the Defense Business
    Transformation System Certification Criteria. This report is one in a series and
    discusses the compliance of the Defense Retiree and Annuitant Pay System
    (DRAS) and the Deployable Disbursing System (DDS) with the Defense Business
    Transformation System Certification Criteria. One additional report will discuss
    another system’s compliance.

    National Defense Authorization Act. On October 28, 2004, Congress passed
    Public Law 108-375, “Ronald W. Reagan National Defense Authorization Act for
    Fiscal Year 2005” (NDAA). Section 2222 of the NDAA states that funds
    appropriated for Defense business modernizations in excess of $1 million may not
    be obligated unless the Designated Approving Authority (DAA) certifies the
    modernization to the Defense Business Systems Management Committee
    (DBSMC), and the DBSMC approves the certification. The NDAA defines
    business system modernizations as, “the acquisition or development of a new
    defense business system or any significant modification or enhancement of an
    existing system.” In addition, the NDAA required the Secretary of Defense to
    delegate the review, approval, and oversight of the Defense business systems to
    the following four Offices of the Secretary of Defense (OSD)-level approval
    authorities:

       •	 Under Secretary of Defense for Acquisition, Technology, and Logistics;

       •	 Under Secretary of Defense (Comptroller)/Chief Financial Officer;

       •	 Under Secretary of Defense for Personnel and Readiness; and

       •	 Assistant Secretary of Defense for Networks and Information Integration
          and Chief Information Officer of the Department of Defense.

    Each approving authority is required to establish an investment review process
    that periodically (at least annually) reviews all business system investments. In
    addition, the process should include an Investment Review Board (IRB) review
    and approval for each Defense business system.

    Section 186 of the NDAA directed the Secretary of Defense to establish the
    DBSMC. The DBSMC is responsible for coordinating Defense business system
    modernization initiatives to maximize benefits, minimize costs, and ensure that
    funds are obligated for Defense business systems in a manner consistent with
    section 2222 of the NDAA.

    Investment Review Board Concept of Operations and DoD Business Systems
    Investment Review Proposal Submission Guideline. On June 2, 2005, the
    DBSMC issued the Investment Review Process Overview Concept of Operations
    for Investment Review Boards (CONOPS). The Special Assistant for Business
    Transformation and the Deputy Under Secretary of Defense for Financial
    Management subsequently issued the DoD Business Systems Investment Review
    Proposal Submission Guideline, Version 07 15 05, to complement the CONOPS.
    These documents explain the investment review process and certification criteria

                                         1

            and describe the responsibilities of the Pre-Certification Authority (PCA), the
            IRB, the Certification Authority (CA), and the DBSMC.

            The CONOPS describes the levels of certification review, or Tiers, required for
            business system modernization investments. These levels are based on specific
            criteria that include dollar value, special interest designation, or whether it meets
            the criteria for Acquisition Category I.

                •	 Tier 1: certification processes that apply to Major Automated Information
                   Systems or programs.

                •	 Tier 2: certification processes that apply to modernizations and
                   investments greater than $10 million to less than the Major Automated
                   Information System threshold 1 or those designated as special interest. 2

                •	 Tier 3: certification processes that apply to those modernizations and
                   investments greater than $1 million to less than $10 million.

            The PCA is responsible for establishing the Component’s own investment review
            process and governance structure, integrating the Component process with OSD
            processes, and conducting Component-level reviews of package information
            before submission to the IRB. The PCA must pre-certify Tiers 1, 2, and 3
            business system modernization requests before recommending them to the CA for
            review and certification.

            The IRB is responsible for reviewing modernization requests and recommending
            them to the CA for certification. The OSD IRB chair is responsible for providing
            clear and concise documented guidance to the Component PCA for Component
            pre-certification.

            The Offices of the Secretary of Defense Certification Authorities are responsible
            for conducting business system investment reviews, certifying business system
            modernizations, establishing priorities and strategic direction for business systems
            review, and ensuring compliance with requirements. The CA reviews the
            modernization investment package after the PCA recommendation. Based on the
            CA’s review and the PCA’s recommendation, the CA makes a certification
            decision for the modernization investment package.

            The DBSMC is the final approval authority. Specifically, the DBSMC approves
            the modernization packages based on recommendations made by the CAs.
            Additionally, the DBSMC must ensure that all IRBs provide guidance to
            Component PCAs. The DBSMC is also responsible for recommending to the
            Secretary of Defense the policies and procedures necessary to integrate the
            NDAA requirements.



1
    The current Major Automated Information System threshold is $32 million.
2
    Special interest is based on technological complexity, Congressional interest, or program criticality to the
     achievement of a capability or set of capabilities. Special interest is also based on whether the program is
     a joint program or whether the resources committed to the program are substantial.

                                                         2

The DoD Business Systems Investment Review Proposal Submission Guideline
provides additional process and proposal submission guidance. Specifically, this
submission guideline provides instructions for completing the Appendix E
Certification Template (IRB workbook) and submitting the modernization
package to the IRB Portal. The IRB Portal is the automated workflow tool and
the OSD single entry point for business system investment submissions. Access
to the IRB Portal is password-restricted, and PCAs are responsible for obtaining
access and posting their systems investment submissions.

The IRB workbook identifies system information that includes points of contact,
the system description, funding and budget, a certification request, a justification,
a transition plan, and architecture. Each section in the IRB workbook contains a
series of questions that must be answered. Responses to Yes/No questions
require further narrative explanation when specifically requested.

Defense Finance and Accounting Service Investment Review Board Process.
The Defense Finance and Accounting Service (DFAS) developed a Component-
level review and approval process. DFAS chartered the Information Technology
Investment Review Working Group (IRWG) to conduct investment reviews and
provide input on portfolio and investment issues. The IRWG is responsible for
conducting pre-certification reviews for the OSD IRB process.

The DFAS IRB process for pre-certifying Tier 3 business systems includes
submitting the IRB workbook and required documents (such as the Defense
Business Systems Certification Dashboard and Economic Viability Analysis) to
the IRWG.

The IRWG reviews the documentation and directs questions to the system point
of contact. After all IRWG members concur on the modernization package, a
pre-certification memorandum is submitted to the PCA. Once the PCA signs the
memorandum, it is posted to the OSD IRB Portal with the Certification
Dashboard and point of contact information.

For FY 2006 modernization investments, DFAS used the IRB workbook, which
required system managers to state whether their automated systems complied with
applicable policies, laws, and regulations. Specifically, system managers were
required to indicate if their system was compliant with the Clinger-Cohen Act
(CCA), DoD Information Technology Security Certification and Accreditation
Process (DITSCAP), and the Federal Financial Management Improvement Act
(FFMIA).

Clinger-Cohen Act. The CCA of 1996 establishes a top-down restructuring of
Federal information technology acquisition programs. The goal of the CCA is to
improve the acquisition and management of Federal information technology
programs. The CCA requires the establishment of an efficient and effective
information technology program for the Federal Government.

The DoD Instruction 5000.2, “Operation of the Defense Acquisition System,”
May 12, 2003, establishes a table to aid DoD Components and Agencies in
assessing CCA compliance. The table identifies several requirements related to
the CCA, including whether the program has an information assurance strategy
consistent with DoD policies.


                                      3

DoD Information Technology Security Certification and Accreditation
Process. The DITSCAP establishes a standard Department-wide process, a set of
activities, general tasks, and a management structure to certify and accredit
information systems, and maintain the information assurance and security posture
of the Defense information infrastructure throughout the life cycle of each system.
The accreditation process is a formal declaration by the DAA that an information
system is approved to operate in a particular security mode using a prescribed set
of safeguards at an acceptable level of risk. The DITSCAP process begins when a
system is developed or modified in response to an identified operational
requirement mission or need.

Federal Financial Management Improvement Act. The FFMIA was enacted in
1996 to ensure consistent accounting by an agency from one fiscal year to the
next. The FFMIA also provides uniform accounting standards throughout the
Federal Government. Federal financial data, including the full costs of Federal
programs and activities, are required so that programs and activities can be
considered based on their full costs and merits.

Defense Retiree and Annuitant Pay System. DRAS is a DFAS automated
system that computes retirement and annuity pay for all military retirees,
annuitants, and surviving spouses. DRAS replaced eight military retiree and
annuitant payroll systems in 1995 with a standard, centrally located system that
interfaces with applicable personnel, accounting, and disbursing systems. The
DFAS Cleveland Center processes both retiree and annuitant pay.

DFAS requested $2.745 million for FY 2006 to modernize DRAS to keep it
compliant with the NDAA and to pay retirees and annuitants accurately and
timely. DFAS prepared a modernization package request, and the PCA
recommended approval of the package on September 2, 2005. The DBSMC
approved the DRAS modernization request on September 28, 2005.

Deployable Disbursing System. DDS is an automated system that provides its
users with a standard method to automate travel pay, military pay, accounts
payable, collection processes, disbursing functions, and reporting requirements.
This system interfaces with applicable automated information systems for
disbursing, collecting, processing, and recording disbursement data and
transactions and can be used on a network or stand-alone computer. DDS can
also be configured for use in a main disbursing office or in a tactical environment.

DFAS requested $4.300 million for FY 2006 to modernize the DDS to complete
the Marine Corps’ transformation from the Standard Finance System Redesign I
to DDS as well as to support changes to the Army’s version of DDS. DFAS
prepared a modernization package request, and the PCA recommended approval
of the package on July 11, 2005. The DBSMC approved the DDS modernization
request on August 31, 2005.




                                     4

Objectives 

     Our overall audit objective was to determine whether DRAS and DDS were
     properly certified and accredited in accordance with the Defense Business
     Transformation System Certification Criteria. Specifically, we determined
     whether DRAS and DDS complied with the IRB process. Although announced as
     an objective, we did not review the management control program as it related to
     the overall objective because a management control program was not developed
     for the IRB process. See Appendix A for a discussion of the scope and
     methodology.


Review of Internal Controls
     DFAS did not implement sufficient controls to ensure that the modernization
     decisions for DRAS and DDS included the impact of being noncompliant with
     Federal and DoD regulations and were based on adequate supporting
     documentation. As a result, the DBSMC did not provide reasonable assurance
     that the pre-certification, certification, and approval for funding of DRAS and
     DDS modernization packages were in accordance with the DoD goal of
     improving financial information and systems and facilitating audit readiness.




                                         5

           Investment Review Process for Business
           System Investments
           The Defense Finance and Accounting Service IRB process was not
           sufficient for pre-certifying modernization packages and identifying
           required supporting documentation. This process was not sufficient
           because the DBSMC did not provide DoD Components with adequate
           guidance for developing Component-level IRB processes. Specifically,
           the DBSMC guidance did not define the impact that noncompliance with
           Federal and DoD regulations would have on the pre-certification process.
           In addition, the DBSMC guidance did not identify specific documentation
           requirements for supporting Component responses in the IRB workbook.
           As a result, the DBSMC approved the DRAS and DDS packages for
           funding of $2.745 and $4.300 million, respectively based on unsupported
           documentation and did not provide reasonable assurance that the
           pre-certification, certification, and approval for funding of these packages
           were in accordance with the DoD goal of improving financial information
           and systems and facilitating audit readiness.


DFAS Investment Review Process
    The DFAS IRB process was not sufficient for pre-certifying modernization
    packages because the guidance from the DBSMC was not complete. The
    DBSMC issued the CONOPS, however, it did not provide Components with
    specific instructions for developing Component-level IRB processes and stated
    that Components were expected to establish their own investment review
    governance structures. DFAS chartered the IRWG to conduct investment reviews
    and provide input on portfolio and investment issues.

    In addition, because the DBSMC guidance did not specify compliance with
    Federal and DoD requirements, DFAS did not define in their IRB process the
    effect that noncompliance with the FFMIA would have on the pre-certification
    process. DFAS stated in their IRB workbook that DRAS was not compliant with
    the FFMIA. However, the IRWG reviewed the DRAS modernization request, and
    the PCA recommended the modernization package to the DBSMC for funding
    even though the system was not FFMIA compliant.

    Without clear guidance, the DBSMC did not provide reasonable assurance that
    the pre-certification, certification, and approval for funding of the DRAS and
    DDS modernization packages were in accordance with the DoD goal of
    improving financial information and systems and facilitating audit readiness.
    Also, non-compliance with Federal regulations could impede the DoD from
    achieving auditable financial statements.




                                         6

Supporting Documentation 

    The DFAS IRB process was not sufficient for ensuring that Components
    maintained documentation that supported their IRB workbook responses and the
    justification for making pre-certification decisions. This process was not
    sufficient because the DBSMC did not provide Components with adequate
    guidance for developing their Component-level IRB processes. Specifically, the
    DBSMC did not identify requirements for supporting documentation.

    DFAS provided system project managers instructions for submitting the
    documentation for review and provided an overview of how the documents
    proceed through the DFAS IRB process but did not instruct system managers on
    which documentation was required and should be maintained to support their IRB
    workbook responses. Although DFAS was not required to submit the IRB
    workbook as part of the modernization package for Tier 3 systems, DFAS was
    still accountable for the information in the IRB workbook and was required to
    make this information available upon request.

    Specifically, DDS Program Management Office (PMO) personnel were unable to
    provide supporting documentation that demonstrated compliance with the
    DITSCAP, CCA, and FFMIA because of the lack of specific guidance. We did
    not identify these issues with DRAS documentation; however, DFAS could not
    provide sufficient documentation that supported their decisionmaking process.

    DoD Information Technology Security Certification and Accreditation
    Process. The DDS System Security Authorization Agreement (SSAA) was not
    signed by any of the required parties and did not identify the user sites or describe
    the operating environment at each proposed operating location. The SSAA is a
    key element of DITSCAP and establishes a binding agreement on the security
    level and operating environment. The agreement is among the DAA, the CA, the
    user representative(s), and the program manager. Their signatures on the SSAA
    are evidence of their agreement. Without an SSAA signed by the appropriate
    representatives, there is reduced assurance that all interested parties agreed on the
    security level and operating environment required for DDS.

    The user representatives for the DDS modernization request were the U.S. Army
    Finance Command and the Marine Corps. However, the SSAA used by DFAS to
    support this request identified the U.S. Army Finance Command as the only user
    representative, and supporting documentation did not state whether a separate
    SSAA was being developed for the Marine Corps deployment. The deployment
    of the DDS to the Marine Corps represented a major change, and the DDS PMO
    should have prepared a new SSAA. Without an SSAA signed by the appropriate
    representatives, there is reduced assurance that all interested parties agreed on the
    deployment.

    Clinger-Cohen Act. The DDS PMO used the table established in DoD
    Instruction 5000.2 to assess compliance with the CCA. The DDS PMO used the
    SSAA to demonstrate that an information assurance strategy consistent with DoD
    policy was in place. However, as previously stated, the SSAA provided by the
    PMO did not include the required signatures. As a result, there is reduced
    assurance that an information assurance strategy was in place, and agreed to by all
    interested parties, for DDS.

                                          7

    Federal Financial Management Improvement Act. The FFMIA requires the
    head of an agency to report annually on the compliance of their financial
    management systems. Neither the DFAS Chief Information Officer nor the DDS
    PMO was able to provide documentation that DDS met the FFMIA reporting
    requirements for FY 2004 and 2005.

    DRAS Modernization Package. As discussed earlier, DFAS stated in its IRB
    workbook that DRAS was not compliant with FFMIA. The DFAS IRB process
    did not include sufficient requirements for documenting the decisionmaking
    process for pre-certifying systems that are not compliant with Federal or DoD
    regulations. DFAS could not provide documentation to support the decision
    methodology used to pre-certify the DRAS modernization package when DRAS
    was not compliant with FFMIA.

    The Under Secretary of Defense for Acquisition, Technology, and Logistics needs
    to direct the Business Transformation Agency to revise the Investment Review
    process guidance. The revisions need to provide reasonable assurance that the
    IRB workbook responses are supported. The Director of DFAS needs to update
    their instructions in accordance with the revised Under Secretary of Defense for
    Acquisition, Technology, and Logistics guidance.


Conclusion
    Because of the inadequacy of the certification and accreditation guidance, the
    DBSMC did not provide reasonable assurance that the pre-certification,
    certification, and approval for funding of the DRAS and DDS modernization
    packages were in accordance with the DoD goal of improving financial
    information and systems and facilitating audit readiness. The Financial
    Management IRB CA and the Human Resource Management IRB CA relied on
    the pre-certification process when certifying the packages. As a result, the
    DBSMC approved the DRAS and DDS packages for funding of $2.745 and
    $4.300 million, respectively based on unsupported documentation. Without
    providing adequate guidance to Components for implementing sufficient controls,
    the DBSMC may continue to approve system modernizations that are not
    compliant with Federal and DoD regulations or adequately supported.

Recommendations
    There are no recommendations in this report. Management actions taken to
    address the recommendations in DoD Office of Inspector GeneralG Report No.
    D-2008-006, “Automated Time Attendance and Production System Compliance
    with Defense Business Transformation System Certification Criteria,” October
    26, 2007, should resolve the issues outlined in this report.




                                       8

Appendix A. Scope and Methodology 

   We conducted this performance audit in accordance with generally accepted
   government auditing standards. Those standards require that we plan and perform
   the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
   for our findings and conclusions based on our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our findings and
   conclusions based on our audit objectives.

   We performed the DRAS audit at the DFAS Headquarters in Arlington, Virginia,
   and DFAS Cleveland, Ohio. We performed the DDS audit at DFAS Headquarters
   and DFAS Indianapolis, Indiana. We reviewed the DFAS IRB process used to
   approve the obligation of funding for the FY 2006 DRAS (Version 07182005b)
   and DDS modernization requests. We interviewed members of the IRWG, as
   well as the DRAS and DDS system managers. We also obtained and reviewed
   DFAS IRB process procedures and documentation. Specifically, we reviewed the
   PCA designation letters, the FY 2006 DRAS and DDS IRB workbooks, and
   supplemental documentation.

   We performed these audits to determine whether DRAS and DDS were properly
   certified and accredited in accordance with the Defense Business Transformation
   System Certification Criteria. Specifically, we:

      •	 interviewed personnel and discussed policies and procedures at DFAS
         Cleveland and Indianapolis as well as the DFAS Headquarters and

      •	 reviewed and analyzed documentation submitted by DFAS Cleveland and
         Indianapolis to DFAS Headquarters.

   We also reviewed and compared the systems’ procedures and documentation to
   the following laws and DFAS IRB process guidance. We reviewed:

      •	 Public Law 108-375, “Ronald W. Reagan National Defense Authorization
         Act for Fiscal Year 2005,” October 28, 2004;

      •	 Public Law 104-208, “Federal Financial Management Improvement Act,”
         September 30, 1996;

      •	 Public Law 104-106, “Clinger Cohen Act,” February 10, 1996;

      •	 DoD Instruction 5200.4, “DoD Information Technology Security 

         Certification and Accreditation Process,” December 30, 1997; 


      •	 DoD Manual 8510.1-M, “DoD Information Technology Security 

         Certification and Accreditation Process Application Manual,”

         July 31, 2000; 


      •	 “Department of Defense Investment Review Process Overview and
         Concept of Operations For Investment Review Boards,” May 17, 2005;
         and


                                       9

       •	 “DoD Business Systems Investment Review Proposal Submission
          Guideline,” Version 07 15 05.

    We performed these audits from May 2006 through October 2006 in accordance
    with generally accepted government auditing standards. We did not review the
    management control program as it related to the investment review process
    because a management control program has not been established for the DFAS
    investment review process.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD Approach to Business Transformation, specifically,
    DoD Financial Management and DoD Business Systems Modernization.


Prior Coverage
    During the last 5 years, the Department of Defense Office of Inspector General
    (DoD OIG) has issued two reports related to Business Transformation Systems
    Certification Criteria. Unrestricted DoD OIG reports can be accessed at
    http://www.dodig.osd.mil/audit/reports.

DoD OIG


    Report No. D-2008-031, “Standard Accounting and Reporting System
    Compliance with the Defense Business Transformation Systems Certification
    Criteria,” December 10, 2007

    Report No. D-2008-006, “Automated Time Attendance and Production System
    Compliance with the Defense Business Transformation System Certification
    Criteria,” October 26, 2007

    Report No. D2007-056, “Integrated Accounts Payable System Compliance with
    the Defense Business Transformation System Certification Criteria,”
    February 7, 2007




                                       10 

Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Acquisition Resources and Analysis
Under Secretary of Defense for Personnel and Readiness
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Department of Defense, Chief Information Officer

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Information Systems Agency

Director, Defense Finance and Accounting Service

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Oversight and Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Oversight and Government Reform




                                          11 

Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service. Personnel of the Department of Defense
Office of Inspector General who contributed to the report are listed below.

Paul J. Granetto
Patricia A. Marsh
Patricia C. Remington
Sheree A. Thompson
G. Marshall Grimes
Linda Czuhai
Mark A. Heim
Mahalakshmi Krishnan
James E. Miniter
Richard M. Ng
Tizita Adamu
Lynette A. Alicea
Jenny R. Ansel
Emily M. Caldwell
Jose Morales-Santiago
Shirlenne S. Tsay
Ann L. Thompson
